                            Department of the Interior
                           Office of Inspector General




            AUDIT REPORT



               U.S. Fish and Wildlife Service
            Federal Assistance Program Grants
          Awarded to the State of South Carolina,
             Department of Natural Resources,
       From July 1, 2003, Through September 30, 2005




Report No. R-GR-FWS-0012-2005             March 2007
                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191
                                                                                 March 22, 2007

                                   AUDIT REPORT
Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Christina M. Bruner
               Director of External Audits

Subject:       Audit Report on the U.S. Fish and Wildlife Service Federal Assistance Program
               Grants Awarded to the State of South Carolina, Department of Natural Resources,
               from July 1, 2003, Through September 30, 2005 (No. R-GR-FWS-0012-2005)

        This report presents the results of our audit of costs incurred by the state of South
Carolina (State), Department of Natural Resources (Department), under grants awarded by the
U.S. Fish and Wildlife Service (FWS). FWS provided the grants to the State under the Federal
Assistance Program for State Wildlife Restoration and Sport Fish Restoration (Federal
Assistance Program). The audit included claimed costs totaling approximately $23.9 million on
the grants that were open during State fiscal years (SFYs) ended June 30 of 2004 and 2005, and
the three months ended September 30 of 2005 (Appendix 1). The audit also covered Department
compliance with applicable laws, regulations, and FWS guidelines, including those related to the
collection and use of hunting and fishing license revenues and the reporting of program income.
       We found the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we identified a potential diversion of license revenues and
problems with State compliance with assent legislation requirements, real property management,
and disaster recovery plans.

     We provided a draft of the report to FWS and the Department for response. This report
summarizes Department and FWS Region 4 responses after each recommendation, as well as our
comments on the responses. We list the status of the recommendations in Appendix 3.
       Please respond in writing to the findings and recommendations included in this report by
June 20, 2007. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.
      If you have any questions regarding this report, please contact the Federal Assistance
Coordinator, Mr. Chris Krasowski or me at 703-487-5345.
cc:     Regional Director, Region 4, U.S. Fish and Wildlife Service
                                                Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Federal Assistance Program for State Wildlife Restoration and Sport
Fish Restoration. Under the Federal Assistance Program, FWS provides grants to states to
restore, conserve, manage, and enhance their sport fish and wildlife resources. The Acts and
federal regulations contain provisions and principles on eligible costs and allow FWS to
reimburse the states up to 75 percent of the eligible costs incurred under the grants. The Acts
also require that hunting and fishing license revenues be used only for the administration of
State’s fish and game agency. Finally, federal regulations and FWS guidance require states to
account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine whether the Department:

           claimed the costs incurred under Federal Assistance Program grants in accordance with
           the Acts and related regulations, FWS guidelines, and the grant agreements;

           used state hunting and fishing license revenues solely for fish and wildlife program
           activities; and

           reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $23.9 million on grants that were open
during SFYs 2004 and 2005, and the three months ended September 30 of 2006 (Appendix 1).
We performed our audit at the Department’s headquarters in Columbia, South Carolina, and
visited two regional offices, two wildlife centers, one boat ramp, one fish hatchery, and seven
wildlife management areas (Appendix 2). We performed this audit to supplement, not replace,
the audits required by the Single Audit Act of 1984, as amended, and by Office of Management
and Budget Circular A-133.

Methodology

We performed our audit in accordance with the ―Government Auditing Standards‖ issued by the
Comptroller General of the United States. We tested records and conducted other auditing
procedures as necessary under the circumstances. Our tests and procedures included:

1
    As amended 16 U.S.C. §§ 669 and 777, respectively.




                                                         2
       examining the evidence that supports selected expenditures charged to the grants by the
       Department;

       reviewing transactions related to purchases, other direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income;

       interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

       conducting site visits to review equipment and other property; and

       determining whether the Department used hunting and fishing license revenues solely for
       sport fish and wildlife program purposes.

To the extent possible, we relied on the South Carolina single auditor’s work to avoid duplication
of audit effort.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions for testing. We did not project the results of the tests to the total population of
recorded transactions, nor did we evaluate the economy, efficiency, or effectiveness of
Department operations.

Prior Audit Coverage

On August 6, 2002, we issued ―Costs Claimed by the State of South Carolina, Department of
Natural Resources and the Marine Resources Division, Under Federal Aid Grants from the U.S.
Fish and Wildlife Service from July 1, 1996 to June 30, 1998‖ (Report No. 2002-E-0007). We
followed up on the report’s recommendations and found that the Department of Interior, Office
of the Assistant Secretary for Policy, Management, and Budget considers them resolved and
implemented.

We reviewed the State’s Comprehensive Annual Financial Reports for SFYs 2004 and 2005 and
the Single Audit Report for SFY2004. The Department was audited as a major program, and the
reports did not include any findings regarding Federal Assistance Program grants or programs
under the grants.




                                                 3
                                      Results of Audit

Audit Summary
We found that the Department complied, in general, with selected grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified
conditions which resulted in the findings listed below. We discuss these findings in more detail
in the Findings and Recommendations Section.

       Potential Diversion of License Revenues. There was a potential diversion of $219,850
       in license revenues to non-fish and wildlife activities.

       Noncompliance With Assent Legislation. Two state statutes include provisions that
       allow for the potential diversion of license revenues to non-fish and wildlife activities.

       Inadequate Real Property Management. The Department’s land records were
       incomplete and did not always identify the funding source for acquisitions.

       No Disaster Recovery Plan. The Department does not have a comprehensive business
       continuity/information technology disaster recovery plan for the internal financial and
       license systems.

Findings and Recommendations
   A. Potential Diversion of License Revenues

       The Department potentially diverted license revenues to uses other than administration of
       the State game and fish agency. To comply with State laws, the Department transfers
       fishing license revenues from the Restricted Fund (Game Fund) into the Earmarked Fund
       (county game accounts) for each of the State’s 46 counties. Funds in the Game Fund
       may be used only for the State’s hunting and fishing program, but the county game funds
       contain no such restriction. We reviewed over 800 payments totaling about $603,000
       that were made from the county game accounts. For the most part, the payments were for
       purposes that were similar in nature to the game and fish expenditures made from the
       Game Fund. However, the transfer of funds to the county game accounts resulted in a
       potential diversion of $219,850 in license revenues during our audit period. The
       $219,850 consisted of lost interest income and expenses not solely for the administration
       of the State’s hunting and fishing program.

       The Code of Federal Regulations (50 C.F.R. § 80.4(c)) states that a diversion of license
       revenues occurs when any portion of license revenues is used for any purpose other than
       the administration of the state fish and wildlife agency. Section 80.4(a)(3) defines
       interest earned on license revenues as license revenue. If a diversion of license revenues
       occurs, the state becomes ineligible to participate under the pertinent Act from the date




                                                 4
the diversion is declared by the Director of the U.S. Fish and Wildlife Service until
adequate legislative prohibitions are in place to prevent diversion of license revenue.

The South Carolina Code of Laws (Section 50-9-910) requires the Department to transfer
one-half of the annual nonresident fishing license revenues to the credit of the county
game fund in the county in which the licenses were sold or revenue collected. The
county game funds must be expended in the respective counties for the protection,
promotion, propagation, and management of wildlife and fish and the enforcement of
related laws.

We provide details on the potential diversions below.

   License Revenue Interest

   When the Department transferred a portion of Department fishing license revenues
   from the Department’s interest-earning Game Fund to its non-interest-earning county
   game accounts, it lost interest income. The Game Fund earns interest according to
   the U.S. Treasury’s Cash Management Improvement Act (CMIA) annualized interest
   rates. The CMIA rates for the periods ended June 30, 2004; June 30, 2005; and
   September 30, 2005 were .98 percent, 2.28 percent, and 3.46 percent, respectively.
   The accumulated balance of transferred fishing license revenues in the county game
   accounts was $1,763,870 as of June 30, 2004; $1,851,633 as of June 30, 2005; and
   $1,974,216 as of September 30, 2005.

   The Department lost the use of interest totaling about $76,580 because the county
   game accounts did not accumulate interest, resulting in a potential diversion of
   fishing license revenues. We calculated the $76,580 figure by applying the applicable
   CMIA interest rates to the ending balances in the county game accounts as of June 30,
   2004; June 30, 2005; and September 30, 2005.

   License Revenue Used for County Park Facilities

   The Department used license revenues to help pay for the development of county
   park facilities. In March 2001, Aiken County submitted two capital improvement
   projects to be financed from the Department’s county game accounts: (1) the Langley
   Pond Park Project, to be paid with Water Recreation Fund State gasoline taxes and
   (2) the Savannah River Public Access Project, to be paid with county game account
   license revenues. In May 2005, Aiken County submitted a $69,900 invoice for
   development of a swimming beach, a special event area, and a picnic shelter area at
   the Langley Pond Park. The Department used $32,770 of county game account
   license revenues to pay the invoice, which was for expenses not solely for the
   administration of the Department’s fish and wildlife agency.

   The use of $32,770 of license revenues which were intended for the Savannah River
   Public Access Project to instead pay for the development of the county park may
   represent a diversion of license revenues. We believe this potential diversion




                                         5
occurred because the Department did not have a formal procedure in place for the
review and approval of county expenditures. In addition, the development of park
facilities with county game account license revenues does not appear to meet the
requirements discussed in Section 50-9-910 of the South Carolina Code of Laws.

License Revenue Used for Advertising

The Department’s license revenues were used by county tourism commissions to pay
for advertising expenses. We could not determine from Department records whether
three tourism commissions actually used payments, totaling about $110,500, to
exclusively promote fishing and hunting opportunities.

The Department did not have a formal procedure in place for the review and approval
of county expenditures. As a result, license revenues of about $110,500 may not have
been used by the counties in a manner beneficial to the Department’s fish and wildlife
agency. The county invoices did not certify that the payment was 100 percent
wildlife and fish promotion. Rather, the license revenues may have been used by the
counties for the promotion of unrelated general tourism activities. The use of license
revenues for general tourism might represent a diversion of license revenues.

Recommendations

We recommend that FWS:

1. replace $109,350 of lost license revenue, including lost license revenue interest
   through September 30, 2005 ($76,580) and lost license revenue used to fund the
   Langley Pond Park Project ($32,770), and deposit the funds into the Game Fund;

2. calculate and replace any lost license revenue interest that would have accrued
   subsequent to October 1, 2005;

3. determine if the use of $110,500 of license revenues by the county tourism
   commissions to pay for advertising represents a diversion of funds, and if so,
   require the Department to deposit $110,500 into the Game Fund;

4. develop administrative procedures that will allow fishing license revenues to
   remain in the Restricted Fund; and

5. develop administrative procedures that will authorize Department officials to
   review and approve all county game account expenditures.

Department Response

Department officials did not concur with recommendations one, three, and five.




                                     6
       With respect to the park, the Department indicated that other State funds, in
       addition to license revenues, are deposited into the county game funds.
       Department officials stated that over the last five years, the deposit ratio in the
       Aiken County Game Fund is two to one between fines and license revenues.
       They believe the non-license revenue funds were adequate to cover the
       expenses for the park.

       With respect to the promotion activities, officials indicated that in FY2005,
       approximately $197,000 was deposited in the county game accounts from
       other funding sources. Officials believe these other funding source more than
       adequately covered the promotion (outreach) expenditures in question.

       With respect to the expenditure activities, officials indicated that they
       implemented administrative procedures in January 2005 to treat all county
       game account expenditures on a cost reimbursement basis, giving the
       Department final review and approval authority over the expenditures.

Officials therefore believe they are in compliance with regulations pertaining to
license revenue.

Department officials concurred with recommendations two and four and indicated
they believe these funds have already been replaced with other State funds.
Specifically, the Department received approximately $18.5 million from the General
Assembly via its annual appropriation in FY2005. In addition, they indicated that
they changed administrative procedures, effective July 2006, to allow fishing license
revenues to remain in the restricted Game Fund.

FWS Response

FWS officials concurred with the recommendations and stated they will consider the
Department’s proposals to implement the recommendations in the corrective action
plan. FWS officials noted that, while the State does not concur with several
recommendations, their response contains actions that the FWS considers significant
steps in resolving the recommendations.

OIG Comments

While FWS management concurred with the recommendations and the Department
indicated action is being taken to address them, additional information is needed in
the corrective action plan, including:

       a detail of the specific surplus funds available to offset the potential diversion
       of license revenue described in the finding,

       details the administrative procedures implemented in January 2005,




                                      7
                (targeted) completion dates,

               titles of officials responsible for the actions taken or planned to resolve and
                implement the recommendations, and

               verification that FWS officials reviewed and approved of actions taken or
                planned by the State.

B.   Noncompliance With Assent Legislation

     The South Carolina Code of Laws, Sections 50-9-910 and 2-65-70, contain provisions
     that create the potential for a diversion of fishing and hunting license revenues. Section
     50-9-910 directs the Department to deposit one-half of nonresident annual fishing license
     fees into county game accounts. State legislation that assents to the provisions of the
     Acts designates a different fund, the Game Fund, for the deposit and expenditure of
     fishing license fees to ensure that the State expends these fees only on the administration
     of the State fish and game agency. Section 2-65-70 requires agencies to recover the
     maximum allowable indirect costs and return these funds—which could include indirect
     cost reimbursements under Federal Assistance Program grants—to the General Fund.

     According to 50 C.F.R. § 80.3, Assent legislation, a state may receive funding under the
     Acts only after it has passed legislation that assents to the provisions of the Acts,
     including a prohibition against diverting hunting and fishing license fees to purposes
     other than administration of the fish and wildlife agency. Further, 50 C.F.R. § 80.4,
     Diversion of license fees, provides that revenues from license fees paid by hunters and
     fishermen shall not be diverted to purposes other than administration of the state fish and
     wildlife agency. A diversion of license fee revenues occurs when any portion of license
     revenues is used for any purpose other than the administration of the state fish and
     wildlife agency. Under Section 80.4(a)(3), license revenue includes interest earned on
     license revenue. Section 80.4(a)(4) states that when license revenues originally funded
     project costs, Federal Assistance Program reimbursements for those costs should be
     treated as license revenue.

     While the State passed assent legislation, the South Carolina Code language was revised
     without fully considering the implications on the diversion provisions of the Acts. As a
     result, although Sections 50-9-910 and 2-65-70 both contain provisions to protect license
     revenues, we found the potential still exists for the diversion of hunting and fishing
     license fees.

     South Carolina Code of Laws Section 50-9-910 provides for the deposit of one-half of
     nonresident annual fishing license fees into county game accounts, which do not earn
     interest and do not prevent diversion of license revenues.

     The Department has designated the majority of the grants authorized under the Acts to be
     exempt from Section 2-65-70. The Department did not designate as exempt three State
     Wildlife Restoration grants (F-68-7, F-86-1, and F-86-2) and two Sport Fish Restoration



                                               8
grants (W-1-30 and W-96-1), but we found that the Department deposits all of the
indirect cost reimbursements from two of the five grants into the restricted Game Fund.
The Department did not request reimbursement of indirect costs for the remaining three
grants. We concluded that, because the Department deposits indirect cost
reimbursements into the restricted Game Fund from exempt grants, it is currently in
compliance with the requirement of 50 C.F.R. § 80.4. However, there is no assurance
that the exemptions will remain permanent. If indirect cost reimbursements are deposited
into the General Fund, as directed by Section 2-65-70, rather than into the restricted
Game Fund, as allowed under the exemptions, the Department could be in violation of 50
C.F.R. § 80.4.

Recommendation

We recommend that FWS ensure that the Department develops appropriate
administrative waivers for South Carolina Code of Laws Sections 50-9-910 and 2-65-70
to assure no provisions exist permitting the potential diversion of fishing and hunting
license revenues.

Department Response

Department officials did not concur with the recommendation. They stated that although
Section 50-9-910 of the South Carolina Code of Laws directs the Department to deposit
one-half of all non-resident annual fishing license fees into a separate account entitled the
County Game Fund, the Department controls these funds and uses them for
administration of the agency. Therefore, they believe all license revenue expenditures
were spent in compliance with applicable regulations.

Department officials did indicate they changed administrative procedures, effective July
2006, to allow fishing license revenues to remain in the restricted Game Fund. In
addition, the Department will request an exemption from Section 2-65-70, which is
allowed under part (B), for all Federal Assistance Program grants to ensure all
reimbursements for related indirect costs remain with the agency.

FWS Response

FWS officials concurred with the recommendation and stated they will consider the
Department’s proposals to implement the recommendation in the corrective action plan.

OIG Comments

While FWS management concurred with the recommendation and the Department
indicated action is being taken to address it, additional information is needed in the
corrective action plan, including:

       (targeted) completion dates,




                                          9
            titles of officials responsible for the actions taken or planned to resolve and
            implement the recommendation, and

            verification that FWS officials reviewed and approved of actions taken or planned
            by the State.

C.   Inadequate Real Property Management

     The Department did not maintain complete land records or always identify the funding
     source for the lands acquired. As a result, Department land records are inadequate to
     assure control over lands acquired with Federal Assistance Program funds and license
     revenues. Furthermore, the Department cannot ensure such lands are being used for their
     intended purposes.

     Title 50 C.F.R. § 80.19 requires that states maintain current and complete property
     records in accordance with requirements contained in the FWS Manual and 2 C.F.R. §
     235. In addition, 50 C.F.R. § 80.18 and the FWS Manual (522 FW 1.16) both make the
     states accountable for assuring that all assets are used for their intended purposes.
     Title 50 C.F.R. § 80.4 requires the same of those assets acquired with license revenues.

     The Department and the FWS each maintain a list of land acquired with Federal
     Assistance Program funds. The two lists do not match, and we identify the disparities
     below. The:

            Department list includes seven parcels of land its managers believe were acquired
            with Federal Assistance Program grant funds, while the FWS list includes six
            parcels of land;

            Department list includes a fish research center and a wildlife management area
            (WMA) that are not on the FWS list; and

            FWS list includes a WMA that is not on the Department list.

     In addition, Department land records did not identify six wildlife management areas
     purchased with license revenues. Finally, three of the four deeds examined did not
     identify the source of funding or contain proper language to protect the assets or alert
     managers to restrictions on the properties.

     We believe these conditions occurred because the Department has not (1) developed
     written policies and procedures to ensure that its records are adequate for managing its
     lands inventory and (2) reconciled its land records with FWS land records.

     Recommendations

     We recommend that FWS require the Department to:




                                              10
     1. develop policies and procedures for maintaining land records that require the
        identification of the source of funding and protective deed language and

     2. establish complete and accurate records for lands acquired with Federal Assistance
        Program grant funds and license revenues and reconcile these records with FWS land
        records.

     Department Response

     Department officials concurred with the recommendations. They stated that deed
     language to protect the assets was not required when some of the lands were acquired,
     and that FWS did not require a reconciliation of records in the past. However, the
     Department officials agreed to develop a Director’s directive that will address
     requirements for the maintenance of land records, require identification of the funding
     source, and require inclusion of protective language in land deeds. Officials also stated
     that where appropriate, the agency will modify exiting land records to include protective
     deed language.

     FWS Response

     FWS officials concurred with the recommendations and stated they will consider the
     Department’s proposals to implement the recommendations in the corrective action plan.

     OIG Comments

     While FWS management concurred with the recommendations and the Department
     indicated action is being taken to address them, additional information is needed in the
     corrective action plan, including:

            targeted completion dates,

            titles of officials responsible for the actions taken or planned to resolve and
            implement the recommendations, and

            verification that FWS officials reviewed and approved of actions taken or planned
            by the State.

D.   No Disaster Recovery Plan

     The Department does not have a comprehensive business continuity/disaster recovery
     plan for its internal financial management, information technology, and license systems.
     Without such a plan, there is inadequate assurance that these critical operations could be
     resumed after a disaster or other disruptive event.

     Federal, National, and International standards provide guidelines on continuity planning.
     These guidelines include the Office of Management and Budget Circular A-130,



                                              11
Appendix III, and the National Institute of Standards and Technology Special Publication
800-12.

According to Department officials, they have not developed a formal continuity plan
because the Department and State are undergoing a change in computing environment.
This change will require the Department to transition from its current "mainframe"
environment.

We believe that in the event of an emergency or disaster, the lack of recovery plans could
affect the State’s compliance with regulations governing the Federal Assistance Program.

Recommendation

We recommend that FWS require the Department to develop and implement a
comprehensive business continuity and information technology disaster recovery plan.

Department Response

Department officials did not concur with the recommendation. However, they indicated
that they understand the importance of critical business operations remaining functional.
Officials indicated the State of South Carolina and the Department of Natural Resources
were already redesigning its computing environment prior to this audit. The redesign
included transferring critical Enterprise Information System applications—including
financial, procurement, materials management, human resources, and payroll system—to
a series of State-operated server farms with built-in redundancy. Officials indicated this
System will serve all agencies in South Carolina. This redesign will also include
developing a formal comprehensive business continuity plan and information technology
disaster recovery plan.

FWS Response

FWS officials concurred with the recommendation and stated they will consider
Department’s proposals to implement the recommendation in the corrective action plan.
FWS noted that, while the State does not concur with the audit finding, their response
contains actions that the Service considers significant steps in resolving the
recommendation.

OIG Comments

While FWS management concurred with the recommendation and the Department
indicated action is being taken to address them, additional information is needed in the
corrective action plan, including:

       targeted completion dates,




                                        12
titles of officials responsible for the actions taken or planned to resolve and
implement the recommendation, and

verification that FWS officials reviewed and approved of actions taken or planned
by the State.




                                  13
                                                    Appendix 1

SOUTH CAROLINA DEPARTMENT OF NATURAL RESOURCES
     FINANCIAL SUMMARY OF REVIEW COVERAGE
     JULY 1, 2003, THROUGH SEPTEMBER 30, 2005

     Grant Number   Grant Amount    Claimed Costs

     F-29-17             $362,696        $332,148
     F-29-18             $351,226        $333,427
     F-29-19             $421,676         $60,104
     F-54-12             $206,667        $228,024
     F-54-13             $287,243        $322,462
     F-58-11              $12,000         $12,000
     F-58-12              $12,000         $12,000
     F-59-11             $292,000        $256,032
     F-59-12             $251,000        $478,017
     F-63-9            $2,151,771      $2,050,656
     F-63-10           $2,362,000      $2,652,003
     F-68-6              $173,334        $146,218
     F-68-7              $201,334        $218,336
     F-74-4              $212,000        $288,185
     F-74-5              $280,934        $379,987
     F-75-3               $94,588        $102,004
     F-76-3              $194,000        $226,244
     F-76-4              $194,000        $365,147
     F-77-2              $108,893        $122,564
     F-77-3              $113,144         $91,430
     F-80-2               $75,000         $58,494
     F-80-3               $79,000        $107,665
     F-81-2               $12,350          $4,927
     F-82-2              $554,113        $554,113
     F-83-2              $240,000        $572,960
     F-83-3              $332,000        $798,390
     F-84-1              $135,000         $96,882
     F-85-1              $165,414        $171,576
     F-85-2              $219,790        $225,903
     F-86-1               $70,000         $70,000
     F-86-2              $345,000          $4,643
     W-1-29              $836,459        $734,342
     W-1-30              $824,660        $901,758
     W-29-47              $12,120         $12,120
     W-29-48              $17,070         $17,790
     W-30-45           $3,023,765      $4,471,837
     W-30-46           $3,587,035      $6,272,495
     W-96-1              $217,175        $122,579
          Total       $19,028,457     $23,875,462



                        14
                                                       Appendix 2


SOUTH CAROLINA DEPARTMENT OF NATURAL RESOURCES
                 SITES VISITED

       Division of Wildlife and Freshwater Fisheries
            Dennis Wildlife Center, Bonneau, SC
             Headquarters Office, Columbia, SC
               Regional Office, Florence, SC
             Webb Wildlife Center, Garnett, SC

               Wildlife Management Areas
            Bear Island WMA, Colleton County
            Donnelley WMA, Colleton County
                Draper WMA, York County
             McConnells WMA, York County
          Santee Delta WMA, Georgetown County
           Thurmond Tract WMA, York County
            Turkey Creek WMA, York County

                     Boating Access
          Cherry Grove Boat Ramp – Myrtle Beach

                      Fish Hatchery
            Bayless Fish Hatchery, Bonneau, SC

               Marine Resources Division
              Regional Office, Charleston, SC




                            15
                                                                                  Appendix 3


            SOUTH CAROLINA DEPARTMENT OF NATURAL RESOURCES
              STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

  Recommendations                   Status                         Action Required
A.1, A.2, A.3, A.4, A.5   FWS management              Additional information is needed in the
B, C.1, C.2, and D        concurs with the            corrective action plan, including the
                          recommendations, but        actions taken or planned to implement
                          additional information is   the recommendations, targeted
                          needed.                     completion date(s), the title of official(s)
                                                      responsible for implementation, and
                                                      verification that FWS officials reviewed
                                                      and approved of actions taken or planned
                                                      by the State. We will refer
                                                      recommendations not resolved and/or
                                                      implemented at the end of 90 days (after
                                                      June 20, 2007) to the Assistant Secretary
                                                      for Policy, Management and Budget for
                                                      resolution and/or tracking of
                                                      implementation.




                                          16
